January 27, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Oversight Reviews – Wellington Postal Retail Unit –
         Wellington, OH (Report Number FF-MA-11-010)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) Group’s performance and conclusions at the Wellington
PRU, Wellington, OH (Project Number 11BR001FF001), performed November 18,
2010. The Wellington Postal Retail Unit (PRU) is in the Northern Ohio District of the
Eastern Area. At the conclusion of FY 2011, we will summarize the results for all
reviews in reports to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission which monitors and manages the Postal Service’s compliance
with SOX. The Postal Service established the FTC to conduct tests of key financial
reporting controls.

We conducted this oversight review in support of the independent public accountant’s
(IPA) reliance on Postal Service management’s testing and overall audit opinions on the
financial statements and internal controls over financial reporting. The IPA relies on the
Postal Service’s internal control testing to support the overall audit opinions.

The overall objective of our review was to evaluate whether FTC properly conducted
and documented their examination of SOX financial reporting controls.

To perform this work, we observed FTC analysts conducting tests and reviewed their
supporting documentation. We performed this review from November 2010 through
January 2011 in accordance with the Quality Standards for Inspections.1

1
 These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of
1978 as amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and
Efficiency (CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not
been amended to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.



                                             Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –              FF-MA-11-010
  Wellington Postal Retail Unit – Wellington, OH



Conclusion

Based on our review of FTC’s work, FTC analysts properly conducted and documented
their examination of key SOX financial reporting controls. See Appendix A for the results
of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters. Management agreed not to respond to the interim reports but will
have the opportunity to formally respond to the draft summary report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Timothy Cole, acting audit
manager, at 724-584-5642, or me at 724-584-5630.

   E-Signed by Kevin Ellenberger
 VERIFY authenticity with ApproveIt
    Thursday, 27 January, 2011



Kevin H. Ellenberger
Director, Field Financial – East

Attachments

cc: Douglas G. Germer
    Corporate Audit and Response Management




                                                    2
                                         Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                             FF-MA-11-010
 Wellington Postal Retail Unit – Wellington, OH



                                                 APPENDIX A: REVIEW RESULTS

       Site Name                                                 Wellington Post Office
       Finance Number-Unit ID                                    3887570901
       Location Type                                             PRU
       Scope Period Under Review                                 October 1 through November 17, 2010
       FTC Review Program Version and Date                       November 1, 2010
       FTC Team                                                  East




 FTC Review        FTC Review Step/        Did FTC have         Did the OIG                      Did FTC       Did the OIG
Step/Control #     Step Description         exceptions/             have          Did FTC       adequately      agree with
                                          findings in this      exceptions/     perform the     document           FTC’s
                                          step? (Yes/No)       findings that       step in       its work      exceptions/
                                                               FTC did not?     accordance      performed    findings (or no
                                                                  (Yes/No)          to its        and the      exceptions/
                                                                                 program?        results?       findings)?
                                                                                  (Yes/No)       (Yes/No)        (Yes/No)
400001/           Unit Reserve                   No                 No               Yes            Yes             Yes
109CA17           Accountability
                  Examination
                  Procedures
400002/           Individual Stamp               No                 No                Yes           Yes           Yes
109CA15           Stock Accountability
                  Examination
                  Procedures
400003/           Bank Deposit                   No                 No                Yes           Yes           Yes
123CA1            Procedures
400004/           Close-out Procedures           No                 No                Yes           Yes           Yes
109CA23




                                                                        3
                                                             Restricted Information
